RECORD NO. ________

IN THE

Supreme Court of the United States

REGINALD ERIC SPROWL,
Petitioner,

v.

MERCEDES-BENZ U.S. INTERNATIONAL, INC.,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

APPENDIX

Lee D. Winston
Counsel of Record
Roderick T. Cooks
WINSTON COOKS, LLC
505 20th Street N, #815
Birmingham, AL 35203
(205) 502-0940
(205) 278-5876 (Fax)
lwinston@winstoncooks.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (804) 644-0477

TABLE OF CONTENTS

PAGE

Opinion of the United States Court of Appeals for the Eleventh Circuit,
filed July 7, 2020 ........................................................................................................ A1
Opinion of the United States District Court for the Northern District of
Alabama, Western Division, filed September 20, 2019 .......................................... A20
Order of the United States District Court for the Northern District of
Alabama, Western Division, filed September 20, 2019 .......................................... A55
Pages from Exhibit, Document 32-1, filed May 6, 2019 ........................................... A56

i

Case: 19-14136

Date Filed: 07/07/2020

Page: 1 of 19

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14136
Non-Argument Calendar
________________________
D.C. Docket No. 7:18-cv-00446-LSC

REGINALD ERIC SPROWL,
Plaintiff-Appellant,
versus
MERCEDES-BENZ U.S. INTERNATIONAL, INC.,
Defendant-Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Alabama
________________________
(July 7, 2020)
Before WILLIAM PRYOR, Chief Judge, JILL PRYOR and BRANCH, Circuit
Judges.
PER CURIAM:

A1

Case: 19-14136

Date Filed: 07/07/2020

Page: 2 of 19

Reginald “Eric” Sprowl appeals from the district court’s grant of summary
judgment in favor of his former employer, Mercedes-Benz U.S. International, Inc.
(hereinafter “Mercedes-Benz”), in his case alleging race-based discrimination,
retaliation, and constructive discharge in violation of 42 U.S.C. § 1981 and Title
VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e et seq. Sprowl argues that
the district court erred in granting Mercedes-Benz’s motion for summary judgment
because (1) Mercedes-Benz’s proffered legitimate, nondiscriminatory reasons for
not promoting him were pretext for discrimination, (2) he established a prima facie
case of retaliation and that Mercedes-Benz’s proffered reasons were pretext, and
(3) he presented sufficient evidence of discriminatory harassment to submit the
constructive discharge claim to a jury. After review, we affirm.
I.

Background

In March 2017, Sprowl, a black male, resigned from his position as a
maintenance technician at Mercedes-Benz, which he had held since September
2012. Approximately a year later, on March 22, 2018, Sprowl filed a complaint
against Mercedes-Benz, alleging violations of Title VII and 42 U.S.C. § 1981.
Specifically, Sprowl’s amended complaint alleged that Mercedes-Benz denied him
promotion to team leader because of his race, retaliated against him for filing a
racial discrimination complaint, and constructively discharged him. After
discovery, Mercedes-Benz moved for summary judgment. Along with its motion,

A2

Case: 19-14136

Date Filed: 07/07/2020

Page: 3 of 19

Mercedes-Benz filed a series of exhibits which demonstrated the following
undisputed facts.
In September 2012, Sprowl began working at Mercedes-Benz as a
maintenance technician team member in “Zone 2.” Each six-person maintenance
team included a “team leader.” A “team leader” is one rank above a “team
member,” and, as the title suggests, directs the team. A “group leader,” in turn,
supervises the team leaders. The group leader also conducts the team members’
performance evaluations. 1 Above the group leader is the maintenance manager.
Scotty Morris was Sprowl’s group leader and Scott McCall was the maintenance
manager.
In 2015, the acting team leader of Sprowl’s team, Ken Gamble, called a
group of black employees “wild animals swinging in trees.” Sprowl complained
about this comment to Morris, and the HR department investigated the complaint.
Gamble was discharged shortly after.
Sprowl claimed his relationship with Morris soured after this incident
because Morris rated him as “Needs Development” in the potential appraisal

1

The performance evaluations consist of two parts. First, the employer reviews the
employee’s performance in their current job. A score of 3.00 or higher shows that the employee
“Meets Expectations.” Second and separately, the employer rates the employee’s potential for
advancement to other positions. This potential appraisal results in either “Ready” or “Needs
Development” labels.

A3

Case: 19-14136

Date Filed: 07/07/2020

Page: 4 of 19

category on every performance review. 2 Sprowl also came to believe that Morris
had turned Sprowl’s colleagues against him after he complained about Gamble; he
noticed that, after they spoke with Morris, colleagues who had once greeted him
and talked with him no longer did so. However, Sprowl did not hear Morris telling
anyone not to associate with or not to be friendly towards him.3 Further, none of
the team members said anything to Morris about Gamble’s termination, and Morris
himself was unaware of any campaign to bring Gamble back to work. Morris
knew that Gamble’s termination stemmed from Sprowl’s complaints, but none of
the team members had personally expressed any resentment about this fact to him.
In January 2016, Mercedes-Benz posted an opening for a team leader
position (the “2016 team leader promotion”) and Sprowl signed up for
consideration. The promotional process at Mercedes-Benz consisted of the

2

Sprowl had received two performance reviews from Morris prior to his complaint about
Gamble and application for the promotion. In 2013, Sprowl received a performance review from
Morris who gave him a performance evaluation score of 3.00 and a “Needs Development”
potential appraisal rating. With regard to the potential appraisal rating, Morris stated that Sprowl
was progressing well but needed to continue to develop his technical skills, take a leadership role
on a project or assignment, and cross-train in other areas of the shop, which he could do by
volunteering to work during his off week. Morris also suggested specific courses Sprowl could
take to improve his leadership qualities. In his 2014 performance review, Morris again gave him
a performance evaluation score of 3.00 and a “Needs Development” potential appraisal rating
along with similar suggestions for improvement. Sprowl did not receive a performance review
in 2015.
3

Sprowl felt particularly uncomfortable around one coworker, Sprayberry, who tried to
help Gamble get his job back and told others at the plant that Gamble was not a racist. But after
Sprowl reported this behavior to the HR department and also to one of the managers, he stopped
hearing as much about Sprayberry’s behavior.

A4

Case: 19-14136

Date Filed: 07/07/2020

Page: 5 of 19

following steps: (1) signing up for the promotion on the self-nomination form; (2)
attending the team leader academy; and (3) receiving a peer review and
performance evaluation. In addition, to be considered, the employee needed to
complete the “Team Leader Assessment,” and have a current performance review
on file. The performance review itself was a two-part process consisting of an
evaluation of (1) the employee’s skill level (the “performance evaluation”) and (2)
the employee’s ability and readiness to develop to the next level (the “potential
appraisal”).4 The selection decision was made jointly between Morris, the group
leader, and McCall, the maintenance manager.
Pursuant to this process, Mercedes-Benz circulated a peer input form, which
allowed a promotional candidate’s coworkers to comment about whether they
thought the candidate would be a good team leader. Sprowl noticed that his name
was not listed on the peer input forms and sent Morris an email requesting an

4

A member of the Mercedes-Benz HR department further explained Mercedes-Benz’s
team leader promotional process as follows. Team members who signed up to be considered for
a promotion to team leader and who met certain basic requirements were evaluated and given
either 1 or 2 points for each of 3 separate criteria: (1) the team member assessment (scores of 29
and above resulted in 2 points, while scores less than 29 resulted in 1 point); (2) the potential
appraisal rating (a rating of “Ready” resulted in 2 points, while a rating of “Needs Development”
resulted in 1 point); and (3) the peer input ratings (scores of 3.5 and above resulted in 2 points,
while scores less than 3.5 resulted in 1 point). Members who received 2 points for each category
were designated as “Ready 1,” those who received 2 points for 2 out of the 3 categories were
designated as “Ready 2,” and those who received 1 point in 2 or more categories were designated
as “Needs Development.” Mercedes-Benz management then filled the team leader position from
the candidates who were designated “Ready 1” or “Ready 2,” while those designated “Needs
Development” overall were ineligible for promotion. Morris never saw any part of the peer
review process except for the ultimate score from the HR department.

A5

Case: 19-14136

Date Filed: 07/07/2020

Page: 6 of 19

explanation for the omission. Morris responded that there had been a mistake as a
result of a mix-up between Sprowl’s first name, “Reginald,” and the name he went
by, “Eric.”5 Mercedes-Benz then amended the peer input sheet and handed out the
new sheets to the employees.
Because Sprowl did not have a current performance review, Morris
conducted a review in February 2016. Morris gave Sprowl a performance
evaluation score of 3.04, which was 0.04 higher than his last evaluation. Morris
gave him a “Needs Development” potential appraisal rating, explaining that he was
not ready for promotion at that time because he needed more exposure to a
particular area of the maintenance crew, “East End of Zone 1,” and to cross-train in
other areas of the shop. Morris also recommended that Sprowl demonstrate his
leadership skills by filling in for the team leader when he was absent, filling out the
Daily Turnover Report, and leading a project in a neighboring area of the facility. 6
In the employee comment section of the review, Sprowl took umbrage with these
recommendations. He claimed that he had worked on both ends of Zone 1,

5

The HR employee who made this mistake was did not know Sprowl and was unaware
of Sprowl’s race.
6

These comments differ from his comments for “Needs Development” on the past two
evaluations in 2013 and 2014. For example, in 2013 and 2014, Morris noted that Sprowl
generally needed to “continue to develop his technical skills” and “[t]ake a leadership role on a
project or assignment. In 2016, Morris gave more specific and focused steps, such as “needs
more exposure to the East End of Zone 1” and “could show his leadership skills by filling in for
his [Team Leader] when he is off shift.”

A6

Case: 19-14136

Date Filed: 07/07/2020

Page: 7 of 19

including the east end for about a year. He further stated that he believed his
“Needs Development” potential appraisal rating was an unfair assessment intended
to keep him from obtaining the team leader position.7
Ten Mercedes-Benz employees applied for the 2016 team leader promotion
and three were selected. Sprowl—the only candidate who was not white—was not
one of those three. The three candidates selected had been received either a
“Ready 1” or “Ready 2” promotion rating, as opposed to Sprowl’s “Needs
Development” promotion rating, which disqualified him. 8 Besides Sprowl, one
other candidate received a “Needs Development,” promotion rating and was
therefore also not eligible for consideration. Morris and McCall believed the
selected candidates were the best qualified for the position because they exhibited
superior leadership skills, regularly filled in as team leader, had significant
experience filling out shift turnover reports, had high technical skills, adeptly
solved problems, and had experience throughout the entire shop. After not
receiving the promotion, Sprowl filed a charge with the EEOC (“2016 EEOC
7

During his deposition after filing his lawsuit, Sprowl disputed additional
recommendations in the performance evaluation. He argued that he had occasionally filled in as
the team leader—at least prior to his complaint and the deterioration of his relationship with
Morris—and had developed his technical and leadership skills through courses and special
trainings. Moreover, he asserted that he had volunteered to work during his weeks off.
8

Confusingly, Mercedes-Benz uses the term “Needs Development” for both the potential
assessment conducted by the team leader and the overall assessment, which accounted for the
potential assessment, peer input, and performance evaluation, conducted by HR. Here, we mean
the “Needs Development” label produced by the HR department which, unlike the “Needs
Development” on the potential assessment, disqualified Sprowl for promotion.

A7

Case: 19-14136

Date Filed: 07/07/2020

Page: 8 of 19

charge”). He claimed that in not promoting him, Mercedes-Benz discriminated
against him because of his race and retaliated against him for complaining about
Gamble. Neither Morris nor McCall was aware that Sprowl filed the 2016 EEOC
charge.
In March 2017, Mercedes-Benz posted another opening for a team leader
position (the “2017 team leader promotion.”), for which Sprowl again signed up.
Sprowl once again received an updated performance review from Morris, in which
he received a performance evaluation score of 3.08 and another “Needs
Development” potential appraisal rating. This evaluation listed essentially the
same overall performance comments and skills that Sprowl needed to enhance as
in Sprowl’s previous evaluations. But in the potential appraisal section, Morris
noted that Sprowl could obtain “Ready” status by volunteering to act as a team
leader, attending leadership workshops offered at Mercedes-Benz’s training center,
and taking the lead on a project in his work area.9
Seven candidates applied for the 2017 team leader promotion and one was
selected. Again, Sprowl was the only candidate who was not white. And again, he
was not selected. The selected candidate was rated “Ready 1” in his promotion
9

Sprowl, in the section for employee comments on his evaluation, wrote that it was a
“travesty” that a ten-year U.S. Navy veteran was being told that he was not ready for a
promotion to team leader when younger, white males with no experience as leaders, less
seniority, and less education were being rated “Ready.” He further stated that the evaluation was
“the continuation of a discriminatory Group Leader that [was] retaliating against [him] for
reporting a violation of [his] civil rights.”

A8

Case: 19-14136

Date Filed: 07/07/2020

Page: 9 of 19

rating. Morris and McCall believed that the selected candidate was the most
qualified for the position based on the same considerations they relied on in
selecting the candidates for the 2016 team leader promotion. And Sprowl was
again not eligible for the position because of his “Needs Development” promotion
rating. The two other candidates who also received a “Needs Development”
promotion rating were also not selected.
After not receiving the March 2017 promotion at Mercedes-Benz, Sprowl
decided to look for a new job and join his family in South Carolina. Sprowl
claimed he left Mercedes-Benz because management and his co-workers continued
to harass him and he did not believe he would ever be promoted. No one at
Mercedes-Benz told him to resign, but he felt he needed to for the sake of his
mental and physical well-being. At his new job in South Carolina, Sprowl worked
as a multi-craft maintenance technician, just as he did at Mercedes-Benz, and
earned $29.75 per hour—slightly less than his approximately $32 per hour wage at
Mercedes-Benz—in addition to overtime pay and a full benefits package. In April
2017, Sprowl filed an EEOC charge (“2017 EEOC charge) complaining that his
former employer, Mercedes-Benz, retaliated against him for filing the 2016 EEOC
charge by denying him promotion. The EEOC provided Sprowl a notice of right to
sue in February 2018, along with an investigator’s report into the matter, and

A9

Case: 19-14136

Date Filed: 07/07/2020

Page: 10 of 19

Sprowl filed his complaint in the United States District Court for the Northern
District of Alabama shortly thereafter.
The district court granted Mercedes-Benz’s motion for summary judgment.
With regard to his discrimination claim, the district court found that Sprowl had
shown that he was qualified for the promotions and thus established a prima facie
case of discrimination on the basis of race, but that he had not produced sufficient
evidence to disprove the legitimate reasons presented by Mercedes-Benz for not
promoting him. As to Sprowl’s retaliation claim, the court found that he failed to
present a prima facie case of retaliation because he did not establish a causal link
between the failure to promote and the protected activity, and had also failed to
establish pretext. Finally, regarding Sprowl’s constructive discharge claim, the
district court found that, even construing the facts in the light most favorable to
Sprowl, no reasonable person in his position would find his working conditions so
intolerable that they felt compelled to resign. Accordingly, the district court
granted Mercedes-Benz’s motion and dismissed Sprowl’s complaint with
prejudice. Sprowl timely filed a notice of appeal.
II.

Standard of Review

We review a district court’s order granting summary judgment de novo,
“viewing all the evidence, and drawing all reasonable inferences, in favor of the

A10

Case: 19-14136

Date Filed: 07/07/2020

Page: 11 of 19

non-moving party.” Vessels v. Atlanta Indep. Sch. Sys., 408 F.3d 763, 767 (11th
Cir. 2005).
III.

Discussion

Sprowl argues that the evidence he presented was sufficient to defeat
summary judgment for his discrimination, retaliation, and constructive discharge
claims related to his employer’s failure to promote. 10 As explained further below,
we conclude that Sprowl has not shown that his employer’s articulated and
legitimate reasons for promoting other candidates were pretextual, thus making
summary judgment appropriate for both his retaliation and discrimination claims. 11
We also hold that summary judgement was appropriate for the constructive
discharge claim because, even construing the evidence in the light most favorable
to Sprowl, no reasonable jury could find that his working conditions had become
so unbearable that a reasonable person in his position would be compelled to

10

Although these claims were brought under both Title VII and 42 U.S.C. § 1981, the
claims have the same burden and are both subject to the same McDonnell Douglas framework.
See Lewis v. City of Union City, Ga., 918 F.3d 1213, 1217 (11th Cir. 2019).
11

In his reply brief, Sprowl appears to argue that the discrimination happened before the
failure to promote, not during the promotion process. Because such an argument would concede
that no discrimination affected the adverse employment action, i.e., the failure to promote, and
because an adverse employment action is central to the claims Sprowl advances, we decline to
consider this argument. In any case, this argument was waived by not raising it at the district
court level or even in the opening brief. See Finnegan v. Comm’r of Internal Revenue, 926 F.3d
1261, 1271 (11th Cir. 2019) (“The general rule is that we will not consider an issue raised for the
first time on appeal.”); Little v. T-Mobile USA, Inc., 691 F.3d 1302, 1306 (11th Cir. 2012)
(collecting binding cases which hold arguments not raised in the opening brief are waived).

A11

Case: 19-14136

Date Filed: 07/07/2020

Page: 12 of 19

resign. As we proceed through the analysis, we are guided by the principle that
“unsubstantiated assertions alone are not enough to withstand a motion for
summary judgment.” Rollins v. TechSouth, Inc., 833 F.2d 1525, 1529 (11th Cir.
1987). Likewise, inferences predicated on speculation, or a mere scintilla of
evidence in support of the nonmoving party, will not suffice to overcome a motion
for summary judgment. Melton v. Abston, 841 F.3d 1207, 1219 (11th Cir. 2016). 12
A. Failure to Promote: Race Discrimination and Retaliation Charges
Title VII makes it an unlawful employment practice for an employer to take
adverse employment actions against an employee “because of such individual’s
race, color, religion, sex, or national origin.” 42 U.S.C. § 2000e-2(a). Further,
under Title VII, an employer may not retaliate against an employee “because he
has opposed any practice made an unlawful employment practice by this
subchapter, or because he has made a charge, testified, assisted, or participated in
any manner in an investigation, proceeding, or hearing under this subchapter.” Id.
§ 2000e-3(a). In the absence of direct evidence of discrimination, a plaintiff can
prove a discrimination claim or a retaliation claim under Title VII through

12

On account of these evidentiary principles, we decline to address Sprowl’s claim that
the district court was incorrect to exclude the EEOC investigator’s report from evidence. For the
purposes of this appeal, we presume the evidence was admissible. However, the statements
contained within the report are “inferences predicated on speculation” from employees with no
personal knowledge of the hiring process, and therefore do not advance Sprowl’s case. Melton,
841 F.3d at 1219. Similarly, we decline to address Sprowl’s contentions that his supervisor
turned his coworkers against him because he offers no evidence to support this belief.

A12

Case: 19-14136

Date Filed: 07/07/2020

Page: 13 of 19

circumstantial evidence, which we analyze using the three-step, burden-shifting
framework established in McDonnell Douglas v. Green, 411 U.S. 792 (1973). See
Brown v. Ala. Dep’t of Transp., 597 F.3d 1160, 1181 (11th Cir. 2010); E.E.O.C. v.
Joe’s Stone Crabs, Inc., 296 F.3d 1265, 1272 (11th Cir. 2002). To succeed under
this framework, a plaintiff must first present enough evidence to establish a prima
facie case of discrimination; the employer then has the burden of production to
articulate legitimate, nondiscriminatory reasons for the adverse employment
action; and then the plaintiff must prove that those reasons were pretext. Joe’s
Stone Crabs, 296 F.3d at 1272. Here, we may proceed directly to the pretext step
(or “third step”) of the analysis for both the retaliation and racial discrimination
claims and presume, as the district court did, that Sprowl established a prima facie
case for each.13 See Ctr. v. Sec’y, Dep’t of Homeland Sec., Customs & Border
Prot. Agency, 895 F.3d 1295, 1303 (11th Cir. 2018). Because both claims fail at
the same step of the McDonnell-Douglas test, and because the facts underlying
each claim are the same, we analyze them together.
Under the third step of the McDonnell-Douglas framework, the court must
consider all the evidence to determine if a reasonable factfinder could conclude
13

The district court found that Sprowl did not meet a prima facie case for retaliation
because he could not establish a causal connection between his 2015 internal complaint about
Gamble or his 2016 EEOC charge and Mercedes Benz’s decision not to promote him in 2016 or
2017. Because, for the purpose of our analysis, we assume that Sprowl could establish a prima
facie case, we do not address whether his retaliation claim stems from his internal complaint or
his 2016 EEOC charge.

A13

Case: 19-14136

Date Filed: 07/07/2020

Page: 14 of 19

that the employer’s legitimate reasons for the adverse conduct were pretext for
discrimination. Combs v. Plantation Patterns, 106 F.3d 1519, 1538 (11th Cir.
1997). The burden to prove pretext is on the plaintiff. See Hornsby-Culpepper v.
Ware, 906 F.3d 1302, 1312 (11th Cir. 2018). An employer’s proffered reason for
the adverse action is not pretext for discrimination unless the plaintiff can show
“both that the reason was false, and that discrimination was the real reason.” St.
Mary’s Honor Ctr. v. Hicks, 509 U.S. 502, 515 (1993) (emphasis in original). A
plaintiff may establish pretext by showing that “the legitimate nondiscriminatory
reasons should not be believed” or that “discriminatory reasons more likely
motivated the decision than the proffered reasons.” Standard v. A.B.E.L. Servs.,
Inc., 161 F.3d 1318, 1332 (11th Cir. 1998).
Mercedes-Benz proffered two reasons for its 2016 and 2017 team leader
promotion decisions: first, that Sprowl did not demonstrate the leadership qualities
necessary for the promotion, and second, that the candidates chosen were the most
qualified. Sprowl advances the following arguments to show that these were
pretext for discrimination or retaliation: (1) Sprowl’s “Needs Development” ratings
in his performance reviews were inconsistent with his actual experience and
demonstrated potential; (2) two fellow employees thought Sprowl was qualified for
the promotion and was passed over due to the Gamble incident; (3) Sprowl’s name
was initially not on the list to be considered for the 2016 team leader promotion,

A14

Case: 19-14136

Date Filed: 07/07/2020

Page: 15 of 19

even though he had applied for it; (4) all the candidates chosen were white; and
(5) all the candidates chosen had similar performance reviews to Sprowl’s.
These arguments are clearly insufficient to show pretext. First, Sprowl’s
disagreement with his “potential appraisal” rating in his performance reviews does
not render Mercedes-Benz’s explanation of its promotion decisions pretextual. For
starters, when weighing whether an employee actually needed development, our
caselaw makes clear that only the employer’s legitimate belief matters. Vessels v.
Atlanta Indep. Sch. Sys., 408 F.3d 763, 771 (11th Cir. 2005); Kidd v. Mando Am.
Corp., 731 F.3d 1196, 1206 (11th Cir. 2013). But even if we were to consider
Sprowl’s disagreement, Mercedes-Benz presented unrefuted evidence that the
potential appraisal rating in his performance review was only one of several factors
considered in the promotion decision. Further, Morris gave numerous reasons for
Sprowl’s “Needs Development” potential appraisal ratings, most of which Sprowl
does not contest. For example, Sprowl does not dispute that he had not taken
certain leadership courses, led projects in his area, completed administerial tasks
behooving of a team leader such as filling out shift turnover reports, or obtained
cross-training in all aspects of his maintenance team. Sprowl “can not [sic]
establish pretext merely by disagreeing with the evaluations.” Standard, 161 F.3d
at 1333.

A15

Case: 19-14136

Date Filed: 07/07/2020

Page: 16 of 19

Sprowl’s contention that the initial exclusion of his name from the peer input
sheet shows pretext is also not persuasive. The record shows that this oversight
was an administrative mistake and corrected immediately. See Ctr. v. Sec’y, Dep’t
of Homeland Sec., Customs & Border Prot. Agency, 895 F.3d 1295, 1303–04 (11th
Cir. 2018) (finding that an agency error which was quickly corrected did not
establish pretext because there was “no evidence to establish that this temporary
error was anything but a genuine oversight.”). Moreover, the employee who made
the mistake did not know Sprowl or that he was black.
Sprowl’s argument that he was comparably qualified to the selected
candidates is likewise unpersuasive. It is not enough for Sprowl to “simply argu[e]
or even [] show[] that he was better qualified than the person who received the
position he coveted.” Springer v. Convergys Customer Mgmt. Grp., 509 F.3d
1344, 1349 (11th Cir.2007) (per curiam) (quoting Brooks v. County Comm'n of
Jefferson Cty., 446 F.3d 1160, 1163 (11th Cir. 2006)). Rather, he “must show that
the disparities between the successful applicant’s and [his] own qualifications were
‘of such weight and significance that no reasonable person, in the exercise of
impartial judgment, could have chosen the candidate selected over the plaintiff.’”
Id. (quoting Cooper v. Southern Co., 390 F.3d 695, 732 (11th Cir. 2004)). Sprowl
has not even attempted to make that showing. Nor could he. The candidates
selected were rated more highly in their performance reviews and peer evaluations,

A16

Case: 19-14136

Date Filed: 07/07/2020

Page: 17 of 19

which resulted in them receiving “Ready 1” or “Ready 2” promotion ratings. By
comparison, Sprowl’s lower ratings in his performance review and peer evaluation
resulted in a “Needs Development” promotion rating. This rating disqualified him
from consideration. True, these are subjective criteria for promotion, but “[a]bsent
evidence that subjective hiring criteria were used as a mask for discrimination, the
fact that an employer based a hiring or promotion decision on purely subjective
criteria will rarely, if ever, prove pretext under Title VII or other federal
employment discrimination statutes.” Id. at 1185. The fact that these candidates
were white while Sprowl was black does not refute the legitimate differences the
employer perceived between the candidates, especially because other white
candidates who had similar reviews to Sprowl were also rejected.
At base, Sprowl disagrees with his employer’s choices. But arguments that
“merely dispute the wisdom” of an employer’s choices are “insufficient to
establish pretext.” Hornsby-Culpepper, 906 F.3d at 1313. Thus, both Sprowl’s
retaliation claim and racial discrimination claim fail.
B. Constructive Discharge Claim
To establish a valid constructive discharge claim, a plaintiff must show that
his “working conditions were ‘so intolerable that a reasonable person in [his]
position would have been compelled to resign.’” Poole v. Country Club of
Columbus, Inc., 129 F.3d 551, 553 (11th Cir. 1997) (quoting Thomas v. Dillard

A17

Case: 19-14136

Date Filed: 07/07/2020

Page: 18 of 19

Dep’t Stores, Inc., 116 F.3d 1432, 1433–34 (11th Cir. 1997)). This showing has
“two basic elements”: (1) that the plaintiff “was discriminated against by his
employer to the point where a reasonable person in his position would have felt
compelled to resign,” and (2) “that he actually resigned.” Green v. Brennan, 136
S. Ct. 1769, 1777 (2016).
Sprowl argues that his working conditions were intolerable because (1) he
was blamed for Gamble’s termination such that his coworkers no longer associated
with him and (2) Mercedes-Benz declined to promote him on two occasions. Even
assuming that “placing blame” on an employee is an intolerable working condition,
Sprowl has not set forth any objective evidence establishing that anyone blamed
him for Gamble’s termination or that one of his superiors at Mercedes-Benz
instructed his coworkers to be unfriendly towards him. See Fitz v. Pugmire
Lincoln-Mercury, Inc., 348 F.3d 974, 977−78 (11th Cir. 2003) (“Mere suspicion of
an unsubstantiated plot is not an intolerable employment condition.”). And absent
a showing of additional, difficult working conditions, failure to promote does not
give rise to an intolerable working condition. See Wardwell v. Sch. Bd. of Palm
Beach Cty., Fla., 786 F.2d 1554, 1558 (11th Cir. 1986) (holding that a plaintiff
“who may have been frustrated” by her failure to be promoted, combined with
added workload and “embarrassment” at work, “simply d[id] not rise to the
intolerable level at which a reasonable person would feel compelled to resign.”).

A18

Case: 19-14136

Date Filed: 07/07/2020

Page: 19 of 19

Thus, the district court did not err in granting Mercedes-Benz’s motion for
summary judgment as to Sprowl’s constructive discharge claim.
AFFIRMED.

A19

FILED

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 1 of 35

2019 Sep-20 AM 09:21
U.S. DISTRICT COURT
N.D. OF ALABAMA

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
WESTERN DIVISION
REGINALD ERIC SPROWL,

Plaintiff,
v.
MERCEDES-BENZ U.S.
INTERNATIONAL, INC.,
Defendant.

)
)
)
)
)
)
)
)
)
)

7:18-cv-00446-LSC

Memorandum of Opinion
I.

Introduction
Plaintiff Reginald Eric Sprowl (“Sprowl”), an African-American, brings this

action against his former employer, Mercedes-Benz U.S. International, Inc.
(“MBUSI”). In Counts I and II of his Amended Complaint, Sprowl asserts race
discrimination and retaliation claims under Title VII of the Civil Rights Act of
1964, 42 U.S.C. § 2000e et seq. (“Title VII”), and 42 U.S.C. § 1981. In Count III,
Sprowl alleges that he was constructively discharged because of his race.
Presently before the Court are MBUSI’s Motion for Summary Judgment
(doc. 24) and Motion to Strike (doc. 36). For the reasons stated below, MBUSI’s

A20

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 2 of 35

motion for summary judgment (doc. 24) is due to be GRANTED, and MBUSI’s
motion to strike (doc. 36) is due to be DENIED as MOOT.
II.

Background1
On September 4, 2012, Sprowl began his employment with MBUSI as a

maintenance member in MBUSI’s Assembly Plant 2. During Sprowl’s
employment with MBUSI, Scotty Morris (“Morris”) was his group leader and
Scott McCall (“McCall”) was his manager.
MBUSI periodically provides performance evaluations for its maintenance
team members. The performance evaluations consist of two pages, the first of
which provides team members with an overall numerical rating for their current
performance in their existing job. A score of 3.00 or higher indicates that the
employee “Meets Expectations.”

On the second page of the evaluation,

maintenance team members are rated as to their potential for advancement

1

The facts set out in this opinion are gleaned from the parties’ submissions of facts
claimed to be undisputed, their respective responses to those submissions, and the Court’s own
examination of the evidentiary record. These are the “facts” for summary judgment purposes
only. They may not be the actual facts. See Cox v. Adm'r U.S. Steel & Carnegie Pension Fund, 17
F.3d 1386, 1400 (11th Cir. 1994). The Court is not required to identify unreferenced evidence
supporting a party’s position. As such, review is limited to exhibits and specific portions of the
exhibits specifically cited by the parties. See Chavez v. Sec’y, Fla. Dept. of Corr., 647 F.3d 1057,
1061 (11th Cir. 2011) (“[D]istrict court judges are not required to ferret out delectable facts
buried in a massive record . . . .”) (internal quotations omitted).

A21

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 3 of 35

(“potential appraisal”) for the next level as either “Ready” or “Needs
Development.”
Morris provided Sprowl’s performance evaluations.

For Sprowl’s first

performance evaluation, which took place in October 2013, Morris evaluated
Sprowl’s performance as Meets Expectations with a numerical grade of 3.00
(“Meets Expectations”). For Sprowl’s potential appraisal, Morris evaluated
Sprowl as “Needs Development.” In November 2014, for his second performance
evaluation of Sprowl, Morris again evaluated Sprowl’s performance with a
numerical grade of 3.00 and marked Sprowl’s potential appraisal as “Needs
Development.”
In September 2015, Sprowl reported to Morris that fellow maintenance team
member Ken Gamble (“Gamble”) had made a racist comment. MBUSI
investigated the incident and ultimately terminated Gamble’s employment. Sprowl
testified that several of the other maintenance team members blamed him for
Gamble’s firing. Specifically, Sprowl believed that Morris tried to turn people
against him after he complained about Gamble, though Sprowl admitted that he
never heard or saw Morris doing so, nor did anyone tell Sprowl that Morris did so.
During the course of the EEOC’s investigation of MBUSI, two of Sprowl’s coworkers stated that Sprowl was treated differently after making the Gamble

A22

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 4 of 35

complaint. Dennis Finnen (“Finnen”), who worked at MBUSI from 2014 to 2016,
said that Sprowl was “shunned” by the Maintenance crew after making the
Gamble complaint. A fellow team member, Cecil Agee (“Agee”), said that there
was an “uproar” over Gamble’s termination and that Sprowl was blamed. Agee
also considered this incident to be the reason why Sprowl was not promoted to
team leader.
In January 2016, MBUSI posted an opening for an Assembly maintenance
team leader position. The team leader is the person responsible for directing work
when the group leader is unavailable. As group leaders do not work the night shift,
team leaders effectively act as group leaders during night shifts in the Assembly
Shop. Additionally, the team leader position is considered a stepping stone to the
group leader position. The January 2016 Team Leader Open Nomination Form
listed the following as eligibility requirements for team leader promotions: (1)
completion of the team leader assessment prior to signup; (2) no current corrective
performance review; (3) ability to perform the essential functions of the position;
(4) overall “S” on performance evaluation; (5) must be a MBUSI team member in
Assembly Plant 2; and (6) must have been in current position for at least six
months.

A23

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 5 of 35

MBUSI evaluates team members who apply for a team leader promotion—
and who meet the basic eligibility requirements—based on three separate criteria.
MBUSI assigns the team members either 1 or 2 points for each criterion. These
three criteria include the team member’s assessment result (29 and above = 2
points, less than 29 = 1 point), the team member’s potential appraisal for the next
level (Ready = 2 points, Needs Development = 1 point), and the team member’s
peer input ratings (3.5 and above = 2 points, less than 3.5 = 1 point). Based on these
three criteria, MBUSI designates team members as Ready 1 (overall receiving 6
points or 2 points in each of the three categories), Ready 2 (overall receiving 5
points or 2 points in two categories and 1 point in one category), or Needs
Development (receiving 1 point in two or more categories). MBUSI fills the team
leader position from Ready 1 and Ready 2 candidates. A candidate with an overall
rating of Needs Development is considered by MBUSI as not eligible for
consideration for promotion.
Sprowl signed up to be considered for the January 2016 team leader job
posting. Sprowl also completed a team leader assessment form. However, when
MBUSI solicited peer input for the candidates for the maintenance team leader
position, Sprowl’s name did not appear on the peer input sheet. Sprowl raised this
issue with Morris, and MBUSI determined that it had mistakenly left Sprowl’s

A24

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 6 of 35

name off the peer input sheet. According to MBUSI’s HR specialist Val Banta
(“Banta”), Sprowl had been left off the list because she initially could not find a
record that Sprowl had completed the team leader assessment. Banta contends this
is because she originally looked up his information under the name Eric Sprowl
while Sprowl’s team leader assessment result had been listed under the name
Reginald Sprowl. Once MBUSI discovered the mistake, it discarded the original
peer input sheets and repeated the peer input process with Sprowl’s name
included.
At the time of the January 2016 team leader job posting, Sprowl did not have
a current performance evaluation. Four white candidates for the maintenance team
leader position also did not have current performance evaluations. As a result,
Morris provided Sprowl and the four white candidates with updated performance
evaluations. Sprowl received a performance evaluation of Meets Expectations with
a numerical grade of 3.04 and potential appraisal score of Needs Development.
While Morris rated two of the four white candidates with a potential appraisal score
of Ready, the other two white candidates received a score of Needs Development.
Morris cited several reasons why he rated Sprowl as Needs Development on
the potential appraisal. Morris testified that Sprowl needed to volunteer to fill in as
team leader when necessary and fill out shift turn over reports. Morris also said

A25

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 7 of 35

that Sprowl needed to gain more technical experience and experience on the other
side of the shop. Morris also felt that Sprowl did not demonstrate leadership
qualities necessary for the team leader position. However, Sprowl testified in his
deposition that he did fill in as team leader and that he had participated in
leadership programs, including a program in Germany.
Sprowl’s peer input score, which his fellow team members supplied, was 3.4.
Sprowl points out, however, that he received a higher overall performance
evaluation score than two of the three white candidates selected for promotion.
Based on the criteria MBUSI uses to evaluate eligibility for promotions, MBUSI
assigned Sprowl only 1 point for peer input and 1 point for his potential appraisal.
Accordingly, Sprowl was rated as Needs Development overall, and MBUSI
determined that he was Not Ready for the January 2016 promotion to team leader.
Ultimately, Chris Jones (“Jones”), Brian Cooper (“Cooper”), and Chris
Hearle (“Hearle”) were selected to fill the available team leader positions. All
three of these individuals are white. During the evaluation process, Cooper had
been rated Ready 1, while Jones and Hearle were rated Ready 2. According to
Morris and McCall, these three candidates were selected as team leaders because
they considered them to be the best qualified for the position (and more qualified
than Sprowl). The potential appraisals for Cooper and Hearle indicated that they

A26

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 8 of 35

filled in for the team lead, completed all tasks a team leader would complete in a
normal work week, showed a “desire to advance,” and requested and accepted
additional projects. The potential appraisal for Jones indicated that he filled in for
the team leader and completed all of the shift turnover information, that he was
capable of leading a team, and that he escalated when necessary.
In March 2016, Sprowl filed an EEOC charge based on MBUSI’s failure to
promote him to the January 2016 team leader position. After investigation, the
EEOC issued Sprowl a Notice of Right to Sue, stating that the EEOC “found
reasonable cause to believe that violations of the statute(s) occurred.” (Doc. 16-1
at 2.) Both Morris and McCall testified that, at that time, they were not made
aware that Sprowl had filed an EEOC charge.
In March 2017, Sprowl applied for another maintenance team leader position
that had been posted. The March 2017 Team Leader Open Nomination Form
listed the same eligibility requirements as the January 2016 Team Leader Open
Nomination Form. Again, Sprowl’s performance evaluation was not current, so
Morris provided him with another performance evaluation. This time, Morris
rated Sprowl as Meets Expectations on his performance evaluation with a grade of
3.08. Sprowl’s potential appraisal score was again rated as Needs Development.
Sprowl’s peer input score for this job posting again fell below a rating of 3.5.

A27

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 9 of 35

Because MBUSI only awarded Sprowl 1 point for the categories of potential
appraisal and peer review, Sprowl’s overall score placed him in the Not Ready
class.

Therefore, Sprowl was not eligible for the March 2017 team leader

promotion. MBUSI selected Nate Davis (“Davis”), who is white and was rated
Ready 1, to fill this team leader position. Again, Morris and McCall believed that
Davis was the most qualified because of his leadership skills, his experience, and his
escalation and problem-solving skills.
After Sprowl did not get the March 2017 promotion to team leader, he
decided to move back to his home state of South Carolina. Sprowl secured a job
with Sealed Air in South Carolina, and he started his employment at Sealed Air on
June 26, 2017.
III.

Standard
Summary judgment is appropriate “if the movant shows that there is no

genuine dispute as to any material fact 2 and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). A dispute is genuine if “the record taken as
a whole could lead a rational trier of fact to find for the nonmoving party.” Hickson
Corp. v. N. Crossarm Co., Inc., 357 F.3d 1256, 1260 (11th Cir. 2004). A genuine
dispute as to a material fact exists “if the nonmoving party has produced evidence
2

A material fact is one that “might affect the outcome of the case.” Urquilla-Diaz v.
Kaplan Univ., 780 F.3d 1039, 1049 (11th Cir. 2015).

A28

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 10 of 35

such that a reasonable factfinder could return a verdict in its favor.” Greenberg v.
BellSouth Telecomms., Inc., 498 F.3d 1258, 1263 (11th Cir. 2007) (quoting Waddell v.
Valley Forge Dental Assocs., 276 F.3d 1275, 1279 (11th Cir. 2001)). The trial judge
should not weigh the evidence, but determine whether there are any genuine issues
of fact that should be resolved at trial. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
249 (1986).
In considering a motion for summary judgment, trial courts must give
deference to the nonmoving party by “view[ing] the materials presented and all
factual inferences in the light most favorable to the nonmoving party.” Animal
Legal Def. Fund v. U.S. Dep’t of Agric., 789 F.3d 1206, 1213–14 (11th Cir. 2015)
(citing Adickes v. S.H. Kress & Co., 398 U.S. 144, 157 (1970)). However,
“unsubstantiated assertions alone are not enough to withstand a motion for
summary judgment.” Rollins v. TechSouth, Inc., 833 F.2d 1525, 1529 (11th Cir.
1987). Conclusory allegations and “mere scintilla of evidence in support of the
nonmoving party will not suffice to overcome a motion for summary judgment.”
Melton v. Abston, 841 F.3d 1207, 1219 (11th Cir. 2016) (per curiam) (quoting Young
v. City of Palm Bay, 358 F.3d 859, 860 (11th Cir. 2004)). In making a motion for
summary judgment, “the moving party has the burden of either negating an
essential element of the nonmoving party’s case or showing that there is no

A29

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 11 of 35

evidence to prove a fact necessary to the nonmoving party’s case.” McGee v.
Sentinel Offender Servs., LLC, 719 F.3d 1236, 1242 (11th Cir. 2013). Although the
trial courts must use caution when granting motions for summary judgment,
“[s]ummary judgment procedure is properly regarded not as a disfavored
procedural shortcut, but rather as an integral part of the Federal Rules as a whole.”
Celotex Corp. v. Catrett, 477 U.S. 317, 327 (1986).
IV.

Discussion
Absent direct evidence of racial discrimination or retaliation, such as specific

statements made by the employer’s representatives, a plaintiff may demonstrate
circumstantial evidence of disparate treatment through the McDonnell Douglas
burden-shifting framework. See McDonnell Douglas Corp. v. Green, 411 U.S. 792
(1973); see also Tex. Dep’t of Cmty. Affairs v. Burdine, 450 U.S. 248 (1981). 3 Under
this framework, the aggrieved employee creates a presumption of unlawful
discrimination by first establishing a prima facie case of discrimination. See Lewis v.
Union City, 918 F.3d 1213, 1220–21 (11th Cir. 2019) (en banc). The burden then
shifts to the employer “to articulate a legitimate, nondiscriminatory reason for its
actions.” Id. at 1221 (citing Burdine, 450 U.S. at 253). If the employer proffers a
3

Because Sprowl has not offered any direct evidence of discrimination, the Court
addresses his claims under the standards applicable to circumstantial evidence of discrimination.
See Alvarez v. Royal Atl. Developers, Inc., 610 F.3d 1253, 1264 (11th Cir. 2010).

A30

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 12 of 35

legitimate, nondiscriminatory reason, the burden returns to the employee to prove
that the employer’s reason is a pretext for unlawful discrimination. Crawford v.
Carroll, 529 F.3d 961, 976 (11th Cir. 2008). Although the McDonnell Douglas
framework is one way of showing discriminatory intent, it is not the only way to
show discriminatory intent in a Title VII or § 1981 discrimination claim. See Smith
v. Lockheed–Martin Corp., 644 F.3d 1321, 1328 (11th Cir. 2011). “[T]he plaintiff
will always survive summary judgment if he presents circumstantial evidence that
creates a triable issue concerning the employer’s discriminatory intent.” Id.
A.

Race Discrimination 4
1. Prima Facie Case

Sprowl argues that he was discriminated against based on his race when
MBUSI failed to promote him to a team leader position in January 2016 and in
March 2017. To establish a prima facie case for failure to promote, a plaintiff must
show: (1) he is a member of a protected class, (2) he was qualified and applied for
4

MBUSI argues that, as an initial matter, it is entitled to summary judgment on Sprowl’s
Title VII race discrimination claim concerning the March 2017 team leader promotion because
Sprowl failed to exhaust his administrative remedies regarding that claim. When he filed his
EEOC charge regarding the March 2017 promotion, Sprowl alleged only retaliation, not race
discrimination. (See Doc. 16-1 at 3.) Sprowl appears to concede this point. (See Doc. 31 at 15.)
However, as Sprowl points out, race discrimination claims brought under Title VII and § 1981
“have the same requirements of proof and use the same analytical framework.” Standard v.
A.B.E.L. Servs., Inc., 161 F.3d 1318, 1330 (11th Cir. 1998). There is no administrative exhaustion
requirement for race discrimination claims brought under § 1981. See CBOCS West, Inc. v.
Humphries, 553 U.S. 442, 454–55 (2008). Accordingly, the Court will proceed to the merits of
Sprowl’s race discrimination claims concerning both the January 2016 and March 2017 team
leader promotions.

A31

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 13 of 35

the position at issue, (3) he was rejected, and (4) the position was filled by a person
outside his protected class. See Vessels v. Atlanta Ind. Sch. Sys., 208 F.3d 763, 768
(11th Cir. 2005) (per curiam) (citing McDonnell Douglas Corp. v. Green, 411 U.S.
792, 802 (1973)).
It is undisputed that Sprowl is a member of a protected class, that he applied
for the positions and was rejected, and that the positions were filled by persons
outside his protected class. MBUSI, however, contends that Sprowl has failed to
show that he was qualified for the promotions at issue.

Specifically, Morris

testified that Sprowl needed to gain more technical experience and experience on
the other side of the shop. Morris also felt that Sprowl did not demonstrate
leadership qualities necessary for the team leader position. It is well settled that
“only evidence that is objectively verifiable and either obtainable or within the
plaintiff’s possession” is considered at the prima facie stage. Id. at 769. Subjective
criteria such as “leadership style . . . have no place in the plaintiff’s initial prima
facie case.” Id. at 768–69. To be sure, the employer may “introduce its subjective
evaluations of the plaintiff at the later stages of the McDonnell Douglas framework.”
Id. at 769. But to show that he was qualified for the position for purposes of the
prima facie case, a plaintiff “need only show that he . . . satisfied an employer’s
objective qualifications.” Id. Further, the plaintiff is not required to produce

A32

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 14 of 35

evidence of the “relative qualifications” of other candidates at the prima facie stage:
only that the plaintiff himself was qualified. See Walker v. Mortham, 158 F.3d 1177,
1193 (11th Cir. 1998).
Although the parties’ briefs focus on whether Sprowl satisfied MBUSI’s
three evaluation criteria—the assessment result, the potential appraisal, and the
peer input ratings—the proper inquiry at the prima facie stage is whether Sprowl
met the initial eligibility requirements listed on the Team Leader Open Nomination
Form. For both the January 2016 and March 2017 promotions, the Team Leader
Open Nomination Form listed the following six eligibility requirements for team
leader promotions: (1) completion of the team leader assessment prior to signup;
(2) no current corrective performance review; (3) ability to perform the essential
functions of the position; (4) overall “S” on performance evaluation; (5) must be a
MBUSI team member in Assembly Plant 2; and (6) must have been in current
position for at least six months. MBUSI’s HR Specialist, Val Banta, stated in her
declaration that “[t]eam members who meet certain basic requirements” are
subsequently evaluated based on the three criteria described above.
a. January 2016 Promotion
Sprowl has shown that he was qualified for the January 2016 promotion for
purposes of satisfying his prima facie case. First, it is undisputed that Sprowl

A33

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 15 of 35

“[met] the stated written job requirements identified in the [team leader] job
description.” (Doc. 31 at 11, ¶ 25.) In response to this statement of fact, MBUSI
merely “[c]larified” that “[Sprowl] was not qualified . . . for TL promotion
because he was assigned only 1 point for peer input and potential appraisal.” (Doc.
35 at 2, ¶ 25.) Further, Sprowl presented unrebutted deposition testimony that he
completed the team leader assessment prior to sign up; that he had no corrective
performance review; that he had an overall “S” on his performance evaluation;
that he was a team member in Assembly Plant 2; and that he was in his current
position for at least six months. Finally, it is undisputed that “[t]eam members
who meet certain basic requirements” are subsequently evaluated based on
MBUSI’s three evaluation criteria, and that MBUSI evaluated Sprowl for the
January 2016 promotion under its three evaluation criteria. Because MBUSI
evaluated Sprowl for the promotion, Sprowl must have satisfied all six “basic
requirements” listed on the Team Leader Open Nomination Form. Therefore,
Sprowl has sufficiently established that he was qualified for the January 2016
promotion for the purposes of satisfying his prima facie case.
b. March 2017 Promotion
Sprowl has also shown that he was qualified for the March 2017 promotion
for purposes of satisfying his prima facie case. Just as with the January 2016

A34

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 16 of 35

promotion, Sprowl satisfied all six “basic requirements” listed on the Team Leader
Open Nomination Form for the March 2017 promotion. Therefore, Sprowl has
sufficiently established that he was qualified for the March 2017 promotion for the
purposes of satisfying his prima facie case.
2. Legitimate, Nondiscriminatory Reasons
Once the plaintiff makes out a prima facie case, the burden shifts to the
employer “to articulate a legitimate, nondiscriminatory reason for its actions.”
Lewis, 918 F.3d at 1221 (citing Burdine, 450 U.S. at 253). The burden at this stage
“is exceedingly light.” Perryman v. Johnson Prods. Co., 698 F.2d 1138, 1142 (11th
Cir. 1983). It is merely a burden of production, not a burden of proof. Id.
a. January 2016 Promotion
MBUSI has articulated several legitimate and nondiscriminatory reasons for
its decision not to promote Sprowl in January 2016. Specifically, Morris testified
that Sprowl did not demonstrate the leadership qualities necessary for the team
leader position, and also that Sprowl needed to gain more technical experience as
well as experience on the other side of the shop. Further, Morris and McCall
testified that they selected Jones, Cooper, and Hearle as team leaders because they
(Morris and McCall) considered Jones, Cooper, and Hearle to be the best qualified
for the position. Jones was more qualified than Sprowl because he filled in for the

A35

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 17 of 35

team leader, completed shift turnover reports, and escalated when necessary.
Further, Hearle and Cooper were more qualified because they filled in for the team
lead, completed all tasks a team leader would complete in a normal work week,
showed a “desire to advance,” and requested and accepted additional projects.
Jones and Hearle were also more qualified because they each received only one
score of “1” as part of MBUSI’s three-part evaluation. They each received a “1”
in the potential appraisal category, a category scored by MBUSI itself. By contrast,
Sprowl scored a “1” in both the potential appraisal and peer input categories.
Jones, Hearle, and Cooper, on the other hand, were more qualified because they
each received a score of “2” in the peer input category, which depends on ratings
given by their peers, not MBUSI. In sum, Sprowl received a lower score than
Jones, Hearle, and Cooper in the category determined by his peers, and Sprowl
received the same score as Jones and Hearle in the category determined directly by
MBUSI.
Therefore, MBUSI has proffered legitimate, nondiscriminatory reasons for
its decision not to promote Sprowl in January 2016.
b. March 2017 Promotion
MBUSI has also articulated legitimate and nondiscriminatory reasons for its
decision not to promote Sprowl in March 2017. MBUSI states that Nate Davis, a

A36

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 18 of 35

white male, was selected for the promotion because Davis was the most qualified
for the position. Specifically, Davis “showed better leadership skills, had filled in
on more occasions as team leader, had more experience filling out shift turnover
reports, had better technical skills, escalated and problem solved better, and had
more experience throughout the entire assembly shop.” (Doc. 24 at 16, ¶ 81.)
Further, Davis received scores of “2” in the potential appraisal and peer input
categories, while Sprowl received scores of “1” in both categories. Therefore,
MBUSI has proffered a legitimate, nondiscriminatory reason for its decision not to
promote Sprowl in March 2017.
3. Pretext
Once the employer articulates a legitimate, nondiscriminatory reason for its
decision, “the burden shifts back to the plaintiff to produce evidence that the
employer’s proffered reason [is] a pretext for discrimination.” Alvarez, 610 F.3d at
1264. “The plaintiff can show pretext ‘either directly by persuading the court that
a discriminatory reason more likely motivated the employer or indirectly by
showing that the employer’s proffered explanation is unworthy of credence,’”
Kragor v. Takeda Pharms. Am., Inc., 702 F.3d 1304, 1308 (11th Cir. 2012) (quoting
Burdine, 450 U.S. at 256), such that a rational trier of fact could disbelieve the
employer’s proffered nondiscriminatory reason, Wilson v. B/E Aerospace, Inc., 376

A37

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 19 of 35

F.3d 1079, 1088 (11th Cir. 2004). “When a plaintiff chooses to attack the veracity
of the employer’s proffered reason, the inquiry is limited to whether the employer
gave an honest explanation of its behavior.” Kragor, 702 F.3d at 1310–11 (internal
quotation marks omitted). A prima facie case plus sufficient evidence of pretext
may permit the factfinder to find unlawful discrimination, making summary
judgment inappropriate. See Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133,
148 (2000).
a. January 2016 Promotion
Sprowl has failed to present sufficient evidence to rebut MBUSI’s claim that
it promoted three white candidates over him because those candidates were better
qualified. To successfully challenge an employer’s explanation that it promoted
the better qualified candidate, the plaintiff must show that “the disparities between
the successful applicant’s and his own qualifications were ‘of such weight and
significance that no reasonable person, in the exercise of impartial judgment, could
have chosen the candidate selected over the plaintiff.’” Springer v. Convergys
Customer Mgmt. Grp. Inc., 509 F.3d 1344, 1349 (11th Cir. 2007) (per curiam)
(quoting Cooper v. Southern Co., 390 F.3d 695, 732 (11th Cir. 2004), overruled in part
by Ash v. Tyson Foods, Inc., 546 U.S. 454 (2006)); see also Ash v. Tyson Foods, Inc.,
546 U.S. 454 (2006) (approving of this language from Cooper). Further, the

A38

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 20 of 35

plaintiff cannot prove pretext by merely arguing or even showing that he was better
qualified than the individual who received the promotion: rather, the plaintiff must
show that the “defendant’s employment decisions . . . were in fact motivated by
race.” Springer, 509 F.3d at 1349.
Sprowl insists that he was more qualified for the promotion than his
evaluations suggest. As an initial matter, this Court notes that Sprowl had received
potential appraisals of Needs Development on two occasions prior to the Gamble
incident, which helps dispel any inference that Sprowl was rated Needs
Development on this occasion based upon his race. Further, Sprowl has failed to
present evidence that the chosen candidates—Jones, Cooper, and Hearle—were
not qualified or that they were less qualified than Sprowl. Sprowl avers that Jones,
Cooper, and Hearle received “identical cut and paste performance assessments”
before they were selected. However, Sprowl does not quarrel with the substance of
their assessments, let alone present evidence that any of the assessments were
false.
Sprowl further asserts that he received a higher score on his performance
assessment than two of the white candidates selected for promotion (Jones and
Hearle), and that this is evidence that MBUSI’s reasons for not promoting him are
pretextual. This Court is not persuaded by Sprowl’s argument. The performance

A39

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 21 of 35

assessment is just one part of MBUSI’s three-part evaluation, and Jones and
Hearle each received higher scores than Sprowl on the other two parts of the
evaluation: potential appraisal and peer input. Cooper, the other white candidate
who was selected, had a higher performance assessment score than Sprowl, and
Sprowl does not argue—let alone prove—that any of facts relied on by MBUSI in
calculating Cooper’s score were false or unworthy of credence.
The evidence in the record shows that MBUSI “gave an honest explanation
of its behavior” when it promoted Jones, Hearle, and Cooper because they were
the most qualified candidates. See Kragor, 702 F.3d at 1310–11. Jones’s potential
appraisal indicates that he filled in for the team leader, completed shift turnover
reports, and escalated when necessary. Sprowl failed to present any evidence that
these descriptions of Jones are false. Further, Hearle’s and Cooper’s potential
appraisals indicate that they filled in for the team lead, completed all tasks a team
leader would complete in a normal work week, showed a “desire to advance,” and
requested and accepted additional projects. Sprowl failed to present any evidence
that these descriptions of Hearle and Cooper are false. And Sprowl presented no
evidence that he had completed all tasks a team leader would complete in a normal
work week, showed a “desire to advance,” or requested and accepted additional
projects—characteristics of both Hearle and Cooper. Therefore, Sprowl has failed

A40

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 22 of 35

to undermine MBUSI’s explanation that it promoted Jones, Hearle, and Cooper
because they were the best qualified for the team leader position. It follows that
Sprowl cannot show that the disparities between the successful candidates’
qualifications and his own were so great that no reasonable person could have
chosen those candidates over himself. See Springer, 509 F.3d at 1349.
This Court acknowledges that Sprowl has presented some evidence that
would allow a rational factfinder to disbelieve some of MBUSI’s proffered
legitimate, nondiscriminatory reasons for not promoting him in 2016. Specifically,
Morris had cited Sprowl’s lack of leadership skills as a reason why Sprowl was
deemed Not Ready for the January 2016 promotion, including that Sprowl needed
to fill in as team leader. However, Sprowl testified in his deposition that he had
filled in as team leader and that he had participated in leadership programs,
including a program in Germany.
Nevertheless, Sprowl has still failed to show that the disparities between the
successful candidates’ qualifications and his own were so great that no reasonable
person could have chosen those candidates over Sprowl. See Springer, 509 F.3d at
1349. Therefore, even construing the facts in the light most favorable to him,
Sprowl has failed to show that MBUSI’s proffered reasons for promoting three
white candidates in January 2016 was a pretext for race discrimination.

A41

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 23 of 35

b. March 2017 Promotion
Regarding the March 2017 promotion, Sprowl does not argue—let alone
prove—that he was more qualified than Nate Davis, the white employee who was
selected for the promotion. Instead, Sprowl avers that two other female employees
who sought the promotion were also deemed Not Ready for the promotion. Sprowl
further avers that he expressed his displeasure with the evaluation process to
MBUSI, and that one of the female employees also expressed frustration with the
allegedly subjective standards used by MBUSI in its evaluation process. It appears
that Sprowl presents this evidence in an attempt to cast MBUSI as discriminatory
in general: in other words, that MBUSI discriminates based on both race and
gender, to the detriment of black and female employees and to the benefit of white
male employees. However, this Court is not convinced that evidence of MBUSI’s
alleged gender discrimination, even if true, is relevant to Sprowl’s own claim that
he was discriminated against based on his race.
Further, Sprowl fails to argue or present any evidence to undermine
MBUSI’s claim that it promoted Davis over himself because Davis “showed better
leadership skills, had filled in on more occasions as team leader, had more
experience filling out shift turnover reports, had better technical skills, escalated
and problem solved better, and had more experience throughout the entire

A42

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 24 of 35

assembly shop.” (Doc. 24 at 16, ¶ 81.) It appears that MBUSI “gave an honest
explanation of its behavior” when it promoted Davis because he was the most
qualified candidate. See Kragor, 702 F.3d at 1310–11. In sum, even construing the
facts in the light most favorable to him, Sprowl has failed to show that the
disparities between Davis’s qualifications and his own were so great that no
reasonable person could have chosen Davis over Sprowl. See Springer, 509 F.3d at
1349.
No reasonable jury could conclude that either (1) MBUSI’s decision to
promote Jones, Hearle, and Cooper over Sprowl in 2016 or (2) MBUSI’s decision
to promote Davis over Sprowl in 2017 was based upon unlawful race
discrimination. Therefore, MBUSI is entitled to summary judgment on Sprowl’s
race discrimination claim (Count I).
B.

Retaliation

Next, Sprowl claims that MBUSI’s failure to promote him to the team leader
position in January 2016 and in March 2017 was unlawful retaliation for Sprowl’s
complaining about Gamble’s racial slur and for filing discrimination charges with
the EEOC. A plaintiff successfully establishes a prima facie case of retaliation if he
demonstrates that (1) he engaged in statutorily protected activity; (2) he suffered
an adverse employment action; and (3) a causal link exists between the protected

A43

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 25 of 35

activity and the adverse employment action. See Brown v. Ala. Dep’t of Transp., 597
F.3d 1160, 1181 (11th Cir. 2010). MBUSI argues that Sprowl cannot meet his initial
burden under McDonnell Douglas because he cannot establish a causal connection
between his statutorily protected activity and the alleged adverse employment
action.
One way a plaintiff can establish a causal connection is by showing that the
employer knew of his statutorily protected activity and there was a close temporal
proximity between this awareness and the adverse employment action. Higdon v.
Jackson, 393 F.3d 1211, 1220 (11th Cir. 2004); see also Clark Cty. Sch. Dist. v.
Breeden, 532 U.S. 268, 273 (2001) (stating that the temporal proximity must be
“very close” and concluding that a 20-month delay was too long). A claim of
retaliation fails as a matter of law “[i]f there is a substantial delay between the
protected expression and the adverse action in the absence of other evidence
tending to show causation.” Higdon, 393 F.3d at 1220. The plaintiff may also
prove causation by showing that the desire to retaliate was the “determinative
influence” on the defendant’s decision to take an adverse action. See Sims v.
MVM, Inc., 704 F.3d 1327, 1337 (11th Cir. 2013).
Sprowl points to his complaint about Gamble and the filing of his EEOC
charge as satisfying the protected activity prong of his prima facie case. It is

A44

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 26 of 35

undisputed that Sprowl reported Gamble’s racist comment in September 2015,
applied for the first team leader job posting in January 2016, and was subsequently
denied the promotion to team leader. Without other evidence of causation, a threeto four-month passage of time between protected activity and an adverse action is
too long for the purposes of establishing a causal link. See Clark, 532 U.S. at 273–
74. Thus, Sprowl cannot rely on temporal proximity alone to establish a causal
connection between his internal complaint, which was made in September 2015,
and MBUSI’s first failure to promote him to a team leader position, which
occurred sometime after January 2016.
Standing alone, the temporal gap between Sprowl’s complaint and MBUSI’s
failure to promote him to the second team leader position also does not support a
finding of causation. MBUSI posted this team leader position in March 2017.
Thus, well over a year passed between the filing of Sprowl’s internal complaint and
MBUSI’s failure to promote Sprowl to this position. The temporal proximity
between these two events is far too attenuated to establish a causal link, in the
absence of other evidence of causation.
Nor is the temporal proximity between Sprowl’s filing of his EEOC charge
and MBUSI’s failure to promote him to the second team leader position
sufficiently close to establish causation on its own. Sprowl filed his EEOC charge

A45

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 27 of 35

in March 2016, which was approximately one year prior to the second team leader
position job posting. Thus, without more, the length of time between these two
events fails to establish causation. Even if the temporal proximity had been closer,
close timing, without evidence of decisionmaker knowledge of the protected
activity, is insufficient to demonstrate causation.

See Brungart v. BellSouth

Telecomms., Inc., 231 F.3d 791, 798–99 (11th Cir. 2000). Here, Morris and McCall,
the relevant decisionmakers with respect to the team leader promotions, testified
that they did not learn of Sprowl’s EEOC charge until after the filing of this
lawsuit. Sprowl does not dispute this testimony. Accordingly, Sprowl has failed to
establish a causal link between the filing of his EEOC charge and MBUSI’s failure
to promote him when the second team leader position became available.
Nonetheless, Sprowl argues that Morris’s knowledge of his complaint about
Gamble, combined with what he asserts is other relevant evidence, sufficiently
establishes causation for the purposes of his prima facie case of retaliation with
respect to both instances of MBUSI’s failure to promote him to the team leader
position. According to Sprowl, the following is sufficient to create a question of
material fact on the issue of causation: (1) evidence that MBUSI did not initially
consider Sprowl for the January 2016 team leader position due to confusion about
his name; (2) the fact that Morris marked Sprowl’s performance as Needs

A46

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 28 of 35

Development when he issued Sprowl’s potential appraisal; (3) evidence that, after
Sprowl complained about Gamble, Morris did not conduct Sprowl’s annual
performance evaluations close to the date of the anniversary of his hire as required;
(4) evidence that, although Sprowl received similar performance assessments to
two white employees who had not made complaints about racism, the two white
employees received potential appraisals that rated them ready for promotion; and
(5) the fact that during the EEOC’s investigation into this matter a witness
reported that MBUSI employees blamed Sprowl for Gamble’s termination and that
this witness believed that Sprowl’s complaint is what prevented him from being
promoted to team leader. (See Doc. 31 at 23–25.)
Assuming, arguendo, that Sprowl had been able to establish a prima facie case
of retaliation, the burden of production would then shift to MBUSI to produce a
legitimate, nondiscriminatory reason for failing to promote Sprowl to team leader.
As stated above in Part IV.A.2, MBUSI’s explanation for its promotion decisions—
that it chose the most qualified candidates to fill the team leader positions—meets
this burden.
Accordingly, the burden shifts back to Sprowl to show that MBUSI’s
proffered reason is mere pretext for unlawful retaliation. A plaintiff may succeed in
demonstrating pretext either “directly by persuading the court that a

A47

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 29 of 35

discriminatory reason more likely motivated the employer or indirectly by showing
that the employer’s proffered explanation is unworthy of credence.” Burdine, 450
U.S. at 256. In determining whether the proffered reason is pretextual, courts are
not in the “business of adjudging whether employment decisions are prudent or
fair,” but instead, are solely concerned with “whether unlawful discriminatory
animus motivates a challenged employment decision.”

Damon v. Fleming

Supermarkets of Fla., Inc., 196 F.3d 1354, 1361 (11th Cir. 1999).
Even if Sprowl did satisfy his prima facie case, Sprowl has nonetheless failed
to produce sufficient evidence of pretext to survive summary judgment on his
retaliation claim. First, although MBUSI did not initially consider Sprowl for the
January 2016 team leader position due to confusion about his name, MBUSI fixed
the problem, and ultimately Sprowl was considered for the position. Second,
although Morris marked Sprowl’s performance as Needs Development when he
issued Sprowl’s potential appraisal, Sprowl had received potential appraisals of
Needs Development on two occasions prior to complaining about Gamble, which
helps dispel any inference that Sprowl was rated Needs Development on this
occasion in retaliation for his complaint. Third, although Morris did not timely
conduct Sprowl’s annual performance evaluations after Sprowl complained about
Gamble, it is undisputed that Morris also did not timely conduct performance

A48

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 30 of 35

evaluations for four white candidates. And, in any event, Morris gave Sprowl
updated performance evaluations so that Sprowl was considered for both
promotions.
Fourth, although Sprowl received similar performance assessments to two
white employees who had not made complaints about racism, and those two white
employees received potential appraisals that rated them Ready for promotion,
these facts do not give rise to an inference of retaliatory animus. The performance
assessment is based on separate criteria from the potential appraisal: the former
considers the employee’s current job performance, while the latter considers
whether the employee has the requisite skills for a promotion. To be sure, some
employees who have demonstrated good performance in their current jobs also
have the requisite skills for a promotion. But good performance in one’s current
job does not necessarily mean that one is ready for a promotion. Therefore, no
retaliatory animus can be inferred from MBUSI’s conclusions that (1) Sprowl had
performed well in his current job but had not demonstrated the requisite skills for a
promotion, and (2) two white candidates had performed well in their current jobs
and had also demonstrated the requisite skills for a promotion.

Finally, the

witness’s report to the EEOC that MBUSI employees blamed Sprowl for Gamble’s
termination is purely speculative and, therefore, insufficient grounds to conclude

A49

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 31 of 35

that MBUSI acted out of retaliatory animus. Similarly, the witness’s belief that
Sprowl’s complaint prevented him from being promoted to team leader is purely
speculative and, therefore, insufficient grounds to conclude that MBUSI acted out
of retaliatory animus.
Further, just as with his discrimination claim, Sprowl has failed to rebut
MBUSI’s nonretaliatory reason for not promoting him: that MBUSI chose the
employees who were the most qualified. For all the same reasons discussed in Part
IV.A.3, supra, Sprowl has neither shown that MBUSI’s proffered reason is false nor
that the real reason was unlawful retaliation as it pertains to either the January 2016
or the March 2017 promotions.
No reasonable jury could conclude that MBUSI’s failure to promote him in
either January 2016 or March 2017 was motivated by unlawful retaliatory animus.
Therefore, MBUSI is entitled to summary judgment on Sprowl’s retaliation claim
(Count II).
C.

Constructive Discharge

Sprowl’s final claim is a claim for constructive discharge. “A constructive
discharge occurs when a discriminatory employer imposes working conditions that
are ‘so intolerable that a reasonable person in [the employee’s] position would have
been compelled to resign.’” Fitz v. Pugmire Lincoln-Mercury, Inc., 348 F.3d 974,

A50

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 32 of 35

977 (11th Cir. 2003) (emphasis added) (quoting Poole v. Country Club of Columbus,
Inc., 129 F.3d 551, 553 (11th Cir. 1997)); see also Green v. Brennan, 136 S. Ct. 1769,
1776 (2016). Courts are to evaluate the plaintiff’s working conditions under an
objective standard.

Penn. State Police v. Suders, 542 U.S. 129, 141 (2004).

“Establishing a constructive discharge claim is a more onerous task than
establishing a hostile work environment claim.” Bryant v. Jones, 575 F.3d 1281,
1298 (11th Cir. 2009) (citing Landgraf v. USI Film Prods., 968 F.2d 427, 430 (5th
Cir. 1992)).
Sprowl alleges that his working conditions were intolerable because of
(1) two instances in which MBUSI declined to promote Sprowl to team leader; and
(2) the fallout from the firing of Gamble, for which Sprowl alleges that he was
blamed. As explained earlier, Sprowl reported Gamble for using a racial slur, and
Gamble was subsequently fired. Sprowl testified that he believes that Morris tried
to turn people against him after he complained about Gamble, though Sprowl
admits that he never heard or saw Morris doing so, and no one ever told him that
Morris did so. However, Dennis Finnen, who worked at MBUSI from 2014 to
2016, said that Sprowl was “shunned” by the maintenance crew after the Gamble
incident. Another team member, Cecil Agee, said that there was an “uproar” over
Gamble’s termination and that Sprowl was blamed.

A51

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 33 of 35

Even construing the facts in the light most favorable to Sprowl, no
reasonable person in Sprowl’s position would find Sprowl’s working conditions so
intolerable that they felt compelled to resign. The Eleventh Circuit requires more
from the plaintiff to overcome summary judgment on a constructive discharge
claim. For example, in Poole, the Eleventh Circuit found that a genuine issue of
material fact existed as to the plaintiff’s age discrimination claim because of the
following working conditions: the defendant refused to process the plaintiff’s
worker’s compensation claim for over a year; the defendant told the plaintiff that
she was “as old as [defendant’s] mother” and told others that plaintiff “was too
old, had too many lines in her face, and too many gray hairs”; the plaintiff was
moved to a new office with no desk or computer; the defendant instructed other
employees not to speak to the plaintiff; and the plaintiff’s “duties and
responsibilities were reduced to virtually nothing.” 129 F.3d at 551–52. Given that
the she was “[s]tripped of all responsibility, given only a chair and no desk, and
isolated from conversations with other workers,” the plaintiff had presented
sufficient evidence that a reasonable person might find her working conditions
intolerable. Id. at 553.
Sprowl has failed to meet the onerous burden of proving constructive
discharge at the summary judgment stage. Unlike in Poole, there is no evidence

A52

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 34 of 35

here that MBUSI knew about or condoned other employees’ decisions to “shun”
Sprowl or blame Sprowl for the Gamble incident. Sprowl cites his belief that
Morris tried to turn other employees against him; however, this is pure
speculation, as Sprowl admits he never saw, heard, or was told about Morris doing
this. Similarly, the statements of Fennin and Agee fail to show that MBUSI knew
about or condoned employees’ alleged mistreatment of Sprowl following the
Gamble incident. And unlike the plaintiff in Poole, Sprowl cannot point to any
direct statements of racial animus, elimination of duties or responsibilities, or any
other conditions that are “so intolerable that a reasonable person in [Sprowl’s]
position would have been compelled to resign.” Fitz, 348 F.3d at 977. In sum,
MBUSI’s failure to promote Sprowl over better qualified candidates on two
occasions, combined with unpleasant treatment from co-workers that was not
condoned by the employer, are insufficient to allow Sprowl’s constructive
discharge claim to survive summary judgment.
Therefore, Sprowl’s constructive discharge claim (Count III) is due to be
dismissed.
V.

Conclusion
For the reasons stated above, MBUSI’s Motion for Summary Judgment

(doc. 24) is due to be GRANTED. MBUSI’s Motion to Strike (doc. 36) is due to

A53

Case 7:18-cv-00446-LSC Document 39 Filed 09/20/19 Page 35 of 35

be DENIED as MOOT. 5 An Order consistent with this Opinion will be entered
contemporaneously herewith.
DONE and ORDERED on September 20, 2019.

_____________________________

L. Scott Coogler
United States District Judge
199335

5

MBUSI’s Motion to Strike objected to the use of the EEOC’s Letter of Determination
(“EEOC Letter”) and the EEOC’s Investigator Memorandum (“EEOC Memorandum”). Even
if this Court concluded that either the EEOC Letter or the EEOC Memorandum were
admissible, it would not change the results of this Opinion. Therefore, the Motion is denied as
moot.

A54

FILED

Case 7:18-cv-00446-LSC Document 40 Filed 09/20/19 Page 1 of 1

2019 Sep-20 AM 09:22
U.S. DISTRICT COURT
N.D. OF ALABAMA

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
WESTERN DIVISION
REGINALD ERIC SPROWL,

Plaintiff,
v.
MERCEDES-BENZ U.S.
INTERNATIONAL, INC.,
Defendant.

)
)
)
)
)
)
)
)
)
)

7:18-cv-00446-LSC

ORDER
For the reasons stated in the Memorandum of Opinion entered
contemporaneously herewith, Defendant’s Motion for Summary Judgment (doc.
24) is GRANTED, and Defendant’s Motion to Strike (doc. 36) is DENIED as
MOOT. Accordingly, this action is DISMISSED WITH PREJUDICE. Costs are
taxed to the Plaintiff.
DONE and ORDERED on September 20, 2019.

_____________________________

L. Scott Coogler
United States District Judge
199335

A55

Case 7:18-cv-00446-LSC Document 32-1 Filed 05/06/19 Page 5 of 18

@
u.$,

E *uAr. EI#ISUT-{EIW OBPORSUHIInT

Mebile Lseal Oftri.ca

C0tt{Ig gIOH
$3 South Hoyal" $LrEebr $uiEe

Hoblle, AL

tl$1t

50d

3660?

6*0-u5to

TtY {e5r} 6S0-f5?9
F*x (t$r l $90-e581

f;HffC Chnrge Humber;

420-30'16-S1437

Rcglnnld $prawl
105 Folly Bc*d Drivc
Crscnwcsd, Sauth Cnralins 3964S

Chargins Pnrty

Msrcedes Bene US Internatinnal
I Mer€edes Drive
Vancs. AL 3549ft

Rexpnnds,nt

LETTNR OF DETSN,M INATICH.
Under the authority y€ssed in mc by the Ccmmisricn, I issuo thc follawing detcnnin$ion a$ ts
tht merits of thc wbject shnrp $lcd undsr Title Vll of the Civit Riglrte Acr Ef 1964, rs
amcnded.

*cspondent is an employer within the meaning of Tirls vll of ths Civil Rigftlr Act of ltl64, as
amendc4 42 U.S.C, $2fiXle, et
Timctincss a$d 8ll otlrcr rcquircr*entr for coveiagc hnvr
bern

rxt.

q.

Chffging Farty alleged thst thc Rmpoadcnt cngegsd in unlrwful anployment prnctices in
viqlation of Title Vll of tbe Civil Righle Act of 1964" as 4me$@ by discriminrrrg agpim hirr
because of his mce (Black) and by rctaliating raainrt hirn after hc complained obouta trneial slur
made by a White co-worker. Aecodlng to the Charging Party, threc White employccs wlu were
lcss qurliftcd than hirn wtrs selected for thc Team L"eadcr poeition, He ccntend* that thc
Evtluation performed by his supcrvisor did not rcflcct his tne pc&nnance.
T-he

The RespondefiI denics thc Chnrying Farty's allegatio*s of discrimination atrd reteliation Bftd
eanlends that tlere is no evidcnec !o support the allegatio*s. Tlr Rcsponded aessrts that thc
sclestsd cardidat€$ had kighcr overdl scorcs ffd wcrc deerncd'rsdy" fur pmmotion while the
Charying Farty was evelualed m ltfeeds Dcvelopmcnt.o'Ths Rcrpordcnt sgrea$ that thc
Chmging Party madc a comploint ngninsr a co-worker reg*rding s disrdminatory cotnment and
that immcdiatef corestivs rction wn* takcn in rusponse. Tlr* Rupondsnt denies that ths
Charging Party's non-sclcction w*s rctaliatory in naturre or $*t k had anything to do with hi*
rilcg.

'fhe cvidence oHaincd thrsugb the invcsrigation suppntts
the Charging party's atlcgiltio* that hs
war qualilicd for thc poeirion a*d thnt hs wes viewed ss n leedcr on his sbift by hi* peorn
'lestirnany abtained disputcs thc Rcspondcnt's position that ths Charying Party
did not tske on
projectx er that h€ lbilcd lo slcp into the TEarn Leader rolc ril'hsn vacant. Thc avsilabls evids|pe
e$tsbli$hcs that th* Chatging Party vohmtcer*d to fill in ar s Tsam Lesder and thnt he wns
mlested to go lo Gcnnnny fora pmjcct in 2015.

A56

Case 7:18-cv-00446-LSC Document 32-1 Filed 05/06/19 Page 6 of 18

Page

T*o

Letter of Dctcrmination

CHAR0I N0.:

4?0-201 6-01437

Accord*ngly, I hcve conchded thst thcre is rsasonablecat$s to bsli€vc thnr Respondcnt
rercliotsd against Churging Party in violation of Section ?03 of Title Vlt of the Civil Rights Acr
of 1964, s3 smefided,
This detcrminalion is finel, Whcn the Cornmission tinds thst vlslationa haw oceurred, it
stlcmpts to climinate rnrlEwful practices by inbrmal methqdg af eonciliation" Thsmfionc, I invitc
!q Fafiies to join rryith ths Camrnission in rcachlng a ju*t rssolutisn cf this maltor, Disclosrrc cf
informationobtaired by tlrc Cammissisn during rhc corcilieticn proc+*s wilt br mrdc only in
accardancc with the Cornmission's Prccedural Rcgutations (29 CFR Pert 160l.16).

tf the Reryondent wishcs ts scccpt thi* invhation to participt* in ccnciliation effofis, ygurnay
!o so b,f reviewing t}s emlosed sgreemsnt as prcscntcd orpmvide a Eounr€r pruposal tc t6
!3mryjsdo1'r mpresentative" Anncttc Ceorgc, within 14 days sf lhe aete of tiris Ocrerminarion.
Shsttld tlrc Rcspnda*t have ftirther questions rcgading the eoacilixtcn procw sr tlrc
conciliation brms it
lfulq ryr. !g pbPos, we errcourage it to conua Anne$c Georgc,
lnvestigator" u ?51.690-2363. $hould tlcrc bc no response fram tk Rcspondent in*14 gays, nm
may concltde that further conciliation efforts would be futile or nonproductive.

Respondcnt is tcrniudsd th*t Fedcrsl law prohibits rctalhtiaqr *gainsl pc15otrc qfio hgvo
exercisad
thcir right to inquie or complain abcut moners thcy b€lieve nry violitc thc law. Discrirnination
agairul penruffi who havs cocpcratd in Commission inve*tigntions iselso prohibir€d. Thse
prsteetion$ rpply rrgardl*ss cf the Cornmirsion's dereiltinstion on the mcrits
of tlre charge.

On fieh,slf of the Cgffiil,tissisn;

Date

Eri,ks LnCour
Sffice StrsstCIr

Locnf,

cc

: Rqspo{r.d:s,fi t, Reprcfienl4llvq
Michrcl Lucas, E${.
BURR FSRMAH" LLP
.fower
l#ells
34S(}

Fargu
42e Nanh Z$rh $rrsel
Bir,mingharn r hL 35?S3

A57

Case 7:18-cv-00446-LSC Document 32-1 Filed 05/06/19 Page 8 of 18

ffi

ffi

u.$. BQUAL E MF LffYMOilT OFFfiRTUNTTY CO I!frMI $$rflN
Mcblnc Locnl Offiss
fi3 fiu*rth Rtty*l $urct, $uite
Mob,tlu" Af

5{}4

. J6#lI

(r5t'090"3{ffJt
TTY ttSl$ S{e457
FAX $5t l

6$et5[f

INVN$TIfi A'I"OR M EMSRAN DUM
Charge Numbcr: 425-20 I fi*0 1 437

FRSM: Ann*ttfl Searge, tnvertigator

$UBJECTI

Rcginald $prorvl v. Mersedes Bens USA

The Charging Party alleges he was dissriminated against by the Respondant because of his rzce
(Black) end retaliatcd against af,ter hE complained of dis*irninatisn. CP alleges he was nol
promoted to tfue Tsam Leader positian in Feb 2016. He madc a complaint of discrimination in
Oct 2015.
Respondent statcs CP wrs not prcmoted the position ol'Team Leader becausc lhc succcssful
candidatec scored better (ready) on the overall evalualion prCIcess and CP $ras not eligiblc
becsuse his sverall r*ting was needs development.

CP was hired by R in ?012 as a Tesm Member. He rcports R pmmoted Chris Hearle
(White/Team Mcmber), Bri*n Caoper {White/Team Member), and Cl*isJsnes (White/Tearn
Member) because of their race.
CP reports he cornplained abeut a racist commenl made by a ca-worksr, Ken Gamble" in Oct
2015. He assert$ the employer was terminated and he was shunned by employees end blamed
for the termination of 6annble.

After his complaint, CP asse*s fi. retali&ted against him when employecs with lass seniority,
skills nnd expcrience were prCImoted to the Te*m Legd poeiticn aver him.
R does nct dispute thrt the CP was hired as a Team Member"

R reports three Te*m Leaderposilions bscame availablc in Jan 2Sl6t.R reports Charging Farty
bid in respon$e to I posting fcr a Tearn Leader Maintensnce positicn in the Assembly
Department. According to R they bavc an esublished pfoccss for Tsem Leader promotions.
"Team Members wlu apply forthe pcsition arc evalusted based on thrsc $sparste criteria end
assigned either I or 2 pcints br each criteria: ( l) th€ir Team Leadsr Assessment rcsult; {2} th€ir
potential appraisal for the ncxt level rating; and (3) their pecr input results. Ccnsidering these
three criteria, candidates are designated as Ready I (overall 2), Ready 2 {ovenll 1.67}, or Necds

' Thr: CP lrlsd thc nfi$C thargc in Msrch 3016,

A58

Case 7:18-cv-00446-LSC Document 32-1 Filed 05/06/19 Page 9 of 18

Development {overall 1.33). MBUSI Management thcn fills the opening frorn ths Ready I and
Ready 2 candidates.

R states they solicited peer input from the candidates' who had applied tbr the position and whc
had completed the Team Lesder Asse$sffient. l'lowever, input wa$ nst solicited for Ch*rging
Party because the HR Specialist in charge of rhe process found no rccord that Charging Farty had
completed th* Te*m Leader Asssssment.'Charging Party actually h*d camplctcd the Tecm
Leader Assessmcnt but his nam€ was searched as Reginald $prcwl r*ther than Eric $prowl, "As
a resuh, a mistakc had baen rnade end Mr. Sprowl was left off tltc original per input
soliciration." Charging Party was offwork that week. When Charging Peity returned to work he
raised this issus. MBUSI looked into the matter and detcnnined thst Charging farty erroneously
had been left offthe peer input list. As a result, MBUSI discaded the prior peer input shcst$ end
repeated the pnrcess with Charging Party's name included.

Also, with respect to perliormance evaluations, the applicable Grcup Leader was requested to
provide evaluations br thosE candidates who did not hav€ cuffent cvnluaticns. This request
included four other candidstes, all of whom were white. 3
Charging Party was assigned a nceds development ot his Fcbruary I 0, 2016 pcrformancc
evalustion. (See Tab D, Exhibit A). That perbnnance evaluation provided Clrarying Party an
overall evaluation level of 3,04 whish wss greater than his prior overall evaluation level whith
was J.0. {$ee Tah D, Exhibit S}. Howcver, Charging Farty was listed as needs development
because "hE needs to inctease his proficieney on the east end of Zone [", Charging Party
prirnarily worked sn th€ west end of Zone I.

In addition to beuering his trchnical proficiency, R reports Charging Party necds to be sble
1o lead repairs in breakdawn situelions and to better *ommunieato. The Charging Pany had becn

encour*ged lo in*ease his proficienoy on the east end of Zone l, his leadership skills and his
communic*tion skills. ln order to de sc, R reports thc Charging Party could vslunteer to work cn
the east end of Z,one I during hil offweek& takr advanl&gf of tho Controls Enginerr, take
iraining coursss which have becn suggested to hisn by his Cnrup Lecder, and csntinue to develop
his proficicncy.
The following is a llst of rhose individuals who were up
2016:
HAME

RACE fiROUP LEANEft I}OTENTIAL
&PPRAISAL

w
w
w

S. Moris
S. Monis

Ready (3]

:5tr)

HD{r}

$. Msrris

R*sdy (?)

ER $prswl

B

S"

29{2'l
26.5 (f )
3?.5 (3)

Cherryr

Msrris

HD{r}

the Teem Lead promotion in Feb

TE,AM LEADEft PSHR
ASST$SMENT

Turner
Jane * *

.1.

hr

IHPUT

4.? (?)
3.? {2}
4.2 {2}
3.4

{t}

AVERAGfi

1.67 {Rcady 3}
1.67 {Ready
1.67 {Ready ?}

I}

L33 tND)

: CP's employee numbcr wfis next to his name
on the signup shcet *nd lvas nol utilizcd ro find him in thc
Rcspoadcnt's databme"
a "spceial" cvalualion, ThE evaluaticn rvas regxired fior lhc selccrion pr,ocrss becar*s his last
evEluation wm ccmplded ovcr a year prior to the promotion lssessment.

t Cp did not rcceive

A59

Case 7:18-cv-00446-LSC Document 32-1 Filed 05/06/19 Page 10 of 18

Cocper*

W

Jacabs W
Hsarile *
!V
fiarduns W
Sre'enwasd W

Corder

W

S. fulsffis
S, Mnrrig
S, Morris

Re*dy (?)

l)
l)

38.5 (l)

4"3 {3}
4,9 t3)

2.0S tRrady
3.$S (Rrady

4,4 {3}
3"?

{t}

Rendy {3}

37 (?)
3o (2)

7,7

{l}

|.&? {Re*dy 3)
L33 {HD}
| "67 (Rendy I )

Rendy {3}

72.5

Reudy (3)
Rendy {?}

$. fu4c,rris

Nn

S. M*rris
S. Mnrrig

{l}

33 t?)

3l t?)

dl\

Thsse individuals who have an asleri$k n€xt to their name were selectcd for the Tearn Lead

position.
R rcports Hearle, Cooper, and Jones wcrc sclected because thcy scared in the Rcady I or Reody
2 mnkings. CP scored as a Needs Development and thsrefbre was nol eligible for promotioa.

Onsitc lntcrvicw
$cctty lltsrrl* {l}I*intcnanc* Sup*rvisor) reports he was hired by the Respondant as a
Maintenance Team Mcmber in Sep 2004. He reports he supcrvises Team Mernbers, Term
Leaders, and Sroup Leaders, He states he supervises about 47 employees with l0 of those
individuals being Team leaders. He states one of the Team Leaders is 8lack.
He slates duties of the Team Leaders arc to escalate afiy problerns that shut down the production
line, coordinate Tearn Membsr activities, repair broken cquipment, and they arc thc technical
leader on the ground. He states they *lso submit reports to him nt the end af the shi&.
He asserts ernployees rotate shifu frorn days to evenings and then to nights. He statcs
an issue that a Team Leader can't handle and he is nct present they call hirn st hame.

if

there is

He slates there is a process in placc tc bccsme o Tenm Leader. Fint the cmployer sclf
nominate$ thcm sclf for the positian, I{e statcs the omployce must eomplete ths Tearn Lsader
a$sessment given by AIDT to self-norninate" He asserts thc TL ssssssment pu* the employee
through situntions *nd padcs them ou how they react and hsndle specific sccnarias. They are
also graded or paperwork skills, organization skills and the process.
He states then cach employee has a peer review. He assefis HR brings the peer review fonns to
the employeer to complete.
Last, the employee is graded on their yearly evaluation. He asserts this is either rrady or needs
development. He states he does the yearly evals on all his employees. HE ststes he observes the
employees when they work. He rsports he also takrs natice of those whs volunteer to take part
in proj*cts or lo fill in and be a leader when the leadsr is absent. He also lssks at the technical
*bility of the individual and their willingness to leam. He reports he schedules training. He
repofis he pcsts a sign-up sheet each week regcrding cross lraining in different areas, lle reports
leadership training is also available through AIDT. I-le roForts employecs bave to go through
hirn to attend this training. Hc slates thcre are formnl and informal r*ining sessioni avnilabie
weekly.
He reports evsluations expirc after ons year. So, if an employee norninates lhemselves far a
pramcl,ion and their evsluation is expired, 8 new ons must be complet*d. lle reports CF

A60

Case 7:18-cv-00446-LSC Document 32-1 Filed 05/06/19 Page 11 of 18

received a Needs Develcpment because he was not completely familiar with the sntire shop. He
shtes CF was mostly familisr with the West end and nct as rnuch with the East end. AIso, hc
reports CP did nol sesk training on his sfftime much, llc reports he can see when a gnup of
people are together ts solvc e prcblem, he can see who steps up and who has the tecbnical ability
to be the TL.
He states CP is able to work mostly without support. HE statcs he is laeking in FLL programming
(roboti c conilpoasnt$).
He reports when CP nominated hirnself in Jan 2016, HR lsokcd hirn up under the name he
signed up under, He repo*s thst is not his legal r:ame or his name in their sy$tem so the HK Rep
did not find hirn. He reports he lookcd at the list and saw that CP wa$ not on it. He reports he
assurne that CP did not complete the $elf-sssessment. Once the issue was discovered the
situation was rectified and the whole pros€ss started from the beginning ts include CP.
He ststes he has the opportunity to observe all ernployees work. He reports all three cf the
seleclees in Feb 2016 have volunteered for a project, small nr large, He s{ates all of therc have
also filled in as the ?L. He states all three did shift reports nnd escalated down time issues to
him. He states all three alr good technical leaders.

He repns CP is a good employee. Hc asserts he hired CP and hc doca not regrst
has been ablE to fulfiH his rcsponsibitities as a Team Memkr.

it beqausc CP

Witne*s Intrnicwr

Dtnnis Finncn (Elcetrical Maintenance) rcports he worked for R from 2004 * 2016. Hc reports
$cotty Morris was his supervisor. He rcportr he wcrkd with Cp and he was wry
knowledgeable about his job. He ssseils CP also took initiative when it eame to the work. fie
states he does nol know why CP was not selected for thc Team Leader Pasition. "Some do mare
ass kissing than others.*'
He stste$ Ken Gamblr was terminated after CP complained that hc made a raciet rcmark. He
reports R was looking for a reason lo terminste Camble because he wss pushing for the union lo
come in and pushing lor rhe plant to be safer for workers.

lle reports he rttired frorn R in 2S16 due to his hsalth

issues {of his own accord}.

lle reports aRer CF complained ab<lut Camble he was shunned by the rest of thE msiiltenqnce
crew" fie ass€rts the three Whlte employees who were selected as Team Leaders were nol as
qualified as CP.
FIe reports when the Tearn Leedsr w&s out emplcyees eould vslunteer to

filled in

a couplc

of times.

A61

fill in. He statcs CP

Case 7:18-cv-00446-LSC Document 32-1 Filed 05/06/19 Page 12 of 18

In regards to training he rcports employees must sign up fur tmining and sornc tmining is
conducted during duty hours so s vacatio* day would bc spcnt if training wns approved and
attended on n duty day.
Cccil Ag*c (Maintenance Teem Englncer) reports he was hired in 3004 as a Maintenanee Tesm
Member. He reports hir supervisor is Scott McCall. He reports hE works with all of th+
rnaintenanse perso*nel. He ctctes $cotty Monis began working br R ahut I months after hs
did. He reporls Marris calls him rnd his tearn memhrs when they need help nnd they c*ll Monis
and his Tearn members if they ns*d additional help.
He states hE knows CP, "he just recently rerigned his porition," lle reports CP rcsigned because
hr was unhappy about not being promotcd. He assens the rules to be*omE a TL change all tlx
time- He rsports eurrently ycu have to dgn up on a list and altended TL training.
He stctes h4orris would ask cerlain individuals, whc h* wnntcd in the position,

1o

sig* up. He

states the ffilection on TLs is b*sically up to the managsr's discretion.

He asserts sorne training is rnandated, but thers is additional training evaihble. He reporls somc
of the training is available to employees during their off time or employecs could train on duty.
He asserts there are many peaple who dsn't corne in on thcir tirnc offts train. Hc dscs not know
who is coming in far training outside of their normal duty days. He rcports R has rcstcrt to sign
up for training. lls report$ CP has atlended training. FIc states CP was sent to Gcnnany to leam
morc absul lhc business. He reports R would not send forneone to Germany who was not
knowlcdgcable sbout the proces*es.

lle repofs filling in for the TL is voluntary. He statc$ rnenagers don't ask or r€quest fbr
fill in. He reports he belicves CF has filled in as thc TL some lim*s.

ernployees to

He states after CP cornplain*d about Ken 6amble, he (CP) Iblt that everything went downhill
from therc. He reporis CP f€h alienated by his co-workers.
Lle states in his opi*ion, CF would have done a fine job as lhe TL. HE &ss€rts he wss equally or
better qualified than those whs were promoied. I{e statcs hc believes that the isrue with Gamble
caused CP to not get the prsmotion. He reporls there wns a huge uprsar of Gamblc's terminstion
and CP was blamed.
FIe reports Morris has his favoriles.
plant.

lle

states he feEls that there is favoritism and racisrn in the

Kristi Gu*relino (Team Member) report$ shc was hirnd by R in Jan t997, She reports Scoty
Morris is her superviscr,
$he reports she has attended training outsidc the plant, but shc hce nsl trained during her

offtime.

$he reports Monis did not want CP to have he TL position. $he states after the Ken Carnble
issur it beearne impossible lbr CP to be promoted because of how CP wes viewcd. She slates

A62

Case 7:18-cv-00446-LSC Document 32-1 Filed 05/06/19 Page 13 of 18

people blamed CP fsr Camble's termination. She reports CF was very qualilied, more qualified
than those selected. She statcs Monis grooms those he wsnts ts gft th€ promotion.
She reparts there is no sign up for training. She stat€s Morris wsuld a*k fcr people take trnining
and cmployees co*ld request to bc trained.

A63

